<html>
<title> - GEOENGINEERING: INNOVATION, RESEARCH, AND TECHNOLOGY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                            GEOENGINEERING: 
                  INNOVATION, RESEARCH, AND TECHNOLOGY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2017

                               __________

                           Serial No. 115-36

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov
       
       
       
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-675PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY McNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
RANDY K. WEBER, Texas                CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
JIM BANKS, Indiana
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY McNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              EDDIE BERNICE JOHNSON, Texas
NEAL P. DUNN, Florida
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                            November 8, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     5

Statement by Representative Suzanne Bonamici, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    13

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    15
    Written Statement............................................    17

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    19
    Written Statement............................................    21

                               Witnesses:

Dr. Phil Rasch, Chief Scientist for Climate Science, Laboratory 
  Fellow, Pacific Northwest National Laboratory
    Oral Statement...............................................    23
    Written Statement............................................    26

Dr. Joseph Majkut, Director of Climate Policy, Niskanen Center
    Oral Statement...............................................    45
    Written Statement............................................    47

Dr. Douglas MacMartin, Senior Research Associate, Cornell 
  University
    Oral Statement...............................................    57
    Written Statement............................................    59

Ms. Kelly Wanser, Principal Director, Marine Cloud Brightening 
  Project, Joint Institute for the Study of the Atmosphere and 
  Ocean, University of Washington
    Oral Statement...............................................    72
    Written Statement............................................    74

Discussion.......................................................    89


             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   106

Letter submitted by Representative Suzanne Bonamici, Ranking 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   107

Statement submitted by Mr. Floyd DesChamps, President, The Desner 
  Group, LLC.....................................................   111

 
                            GEOENGINEERING:
                  INNOVATION, RESEARCH, AND TECHNOLOGY

                              ----------                              


                      Wednesday, November 8, 2017

                  House of Representatives,
                    Subcommittee on Environment and
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:11 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee on Environment] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. The Committee on Science, Space, and 
Technology Subcommittee on Environment and Subcommittee on 
Energy joint hearing on Geoengineering: Innovation, Research 
and Technology is called to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time, and I now recognize 
myself for five minutes for an opening statement.
    Good morning, and welcome to the joint Environment 
Subcommittee and Energy Subcommittee hearing on geoengineering. 
I thank each of our witnesses for being here today.
    Since this is the first time we're discussing the topic of 
geoengineering this Congress, it is important to explain what 
geoengineering actually is. In its simplest terms, 
geoengineering is the concept of using scientific understanding 
to alter the atmosphere in a way that produces positive 
outcomes and results. Many of the concepts in this field deal 
with solar radiation management, or how to influence the 
effects of the sun on the earth.
    But the field is by no means limited to solar research. 
Geoengineering can also be used to manipulate different levels 
of gases in the atmosphere, such as carbon dioxide. These 
avenues of geoengineering research and others are still in the 
developmental stage, and any or all of them may warrant further 
exploration.
    While there are at least a few programs in our Nation's 
universities that are looking into these concepts, federal 
research is still limited. However, if in the future the 
government wants to actually apply the concepts and findings of 
geoengineering research, we must fully examine both the 
potential merits and potential pitfalls of this emergent field.
    Since the theories and concepts involved are still so new, 
we cannot say definitively if geoengineering technology 
warrants full-scale development or deployment. Quite simply, 
more basic research is necessary to determine whether it is a 
viable tool.
    Today, we will learn about what research has been conducted 
on geoengineering and which promising concepts should be 
explored further. We will hear from government, academia, think 
tank and industry representatives who have unique perspectives 
on this topic. They will tell us about the research being done, 
as well as future concepts and how they could be used 
responsibly.
    We as lawmakers have a responsibility to explore these 
concepts, learn as much as possible about them, and discuss 
ideas about how we can be helpful in supporting basic research.
    I'd also like to take a moment to clarify any 
mischaracterizations about this hearing. The purpose of this 
hearing is to discuss the viability of geoengineering and any 
early-stage research associated with this approach. The hearing 
is not a platform to further the debate about climate change. 
We've had lots of that this session. Instead, its aim is to 
explore approaches and technologies that have been discussed in 
the scientific community and to assess the basic research 
needed to better understand the merits of these ideas. It is my 
hope that members will respect this focus so that we can have a 
meaningful discussion about geoengineering.
    Again, I want to thank the witnesses for being here today, 
and I look forward to hearing more about these interesting 
concepts.
    [The prepared statement of Chairman Biggs follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman Biggs. With that, I yield back my time and 
recognize the Ranking Member, Ms. Bonamici for her opening 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you for holding this important hearing.
    I'm very encouraged that the Science Committee is 
discussing geoengineering, a field of science and engineering 
that is still in its infancy and has ample areas for future 
research, and it's noteworthy for its potential. It's important 
that we consider it from political, ethical, legal, and 
environmental perspectives.
    Geoengineering is a set of climate interventions that aim 
to manipulate our climate to either remove greenhouse gases 
from our atmosphere or reduce the amount of sunlight absorbed 
by the Earth. Now, some may argue that geoengineering is a way 
to use technology to bypass important mitigation and adaptation 
strategies that address the impacts of climate change, but even 
with geoengineering, our first and primary actions to address 
climate change must be mitigation and adaptation strategies.
    In our communities, climate change is not a partisan issue. 
Nationwide, there are fishers and farmers and small-business 
owners, and servicemen and women who are having to change the 
way they do their jobs because of climate change, and 
regardless of their political affiliation. The economic, 
health, and environmental consequences of climate change are 
well known, and our understanding about how to address the 
causes of climate change continue to improve.
    It's critical that we support scientific research about 
climate, and that we build on rather than break down decades 
worth of progress on this issue. I urge the Committee to hold 
hearings specifically on mitigation and adaption strategies to 
help communities grapple with this situation.
    Geoengineering is an option our country should explore. The 
state of current geoengineering research makes clear that we 
are years or perhaps decades away from potential deployment, 
and the risks of deployment are not well understood, and we're 
hoping for some answers here today. In fact, a key finding in 
the U.S. Global Change Research Program's Climate Science 
Special Report, which was published last Friday, determined 
that further assessments of the technical feasibilities, costs, 
risks, co-benefits, and governance challenges of climate 
intervention or geoengineering strategies, which are as yet 
unproven at scale, are a necessary step before judgments about 
the benefits and risks of these approaches can be made with 
high confidence.
    This is because of a lack of technical maturity and 
understanding of the risks associated with geoengineering. We 
do not currently have enough evidence to determine whether any 
of the various proposals for geoengineering can provide long-
term solutions to address the impacts of climate change, or 
that they would not pose any adverse consequences to our 
environment.
    Our climate is changing, and the warming trends observed 
over the last hundred years are primarily caused by human 
activities, specifically the emission of greenhouse gases. In 
fact, this is one of the most prominent findings in the Climate 
Science Special Report. This report unequivocally lays out the 
need to reduce carbon dioxide emissions to prevent long-term 
warming and short-term climate change.
    I want to ask the Subcommittee Chairman for unanimous 
consent to include a letter addressed to him and Chairman Smith 
into the record. It's been signed by many prominent members of 
the geoengineering research community, highlighting the urgency 
of the threat that climate change poses and reemphasizes that 
geoengineering is not a magic fix to addressing climate change.
    Chairman Biggs. Without objection.
    [The information appears in Appendix I]
    Ms. Bonamici. And with that, Mr. Chairman, I'd like to 
yield the remainder of my time to the gentleman from 
California, Mr. McNerney.
    [The prepared statement of Ms. Bonamici follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Biggs. Mr. McNerney, please.
    Mr. McNerney. Well, I thank the gentlewoman from Oregon, 
and I thank the Chairman for calling this hearing.
    Climate change is happening, and the effects are 
accelerating faster than the scientific models predict. The 
changes we are experiencing today are the results of heating 
that has taken place over the past decades. Meanwhile, carbon 
concentration in the atmosphere is continuing to increase. 
Therefore, additional heating and climate impacts are 
inevitable even if we were to stop carbon emissions 
immediately. In other words, we are committed to significant 
change.
    The unknown is how much change we're committed to and how 
fast it will take place. It's not known if we are committed to 
truly catastrophic change with the current policies or not. But 
no matter what, it's absolutely critical to reduce carbon 
emissions and prepare for the changes that are coming, in other 
words, mitigate and adopt.
    The changes we are committed to may be so strong that we'll 
need to know what can be done to prevent utter catastrophe. 
What tools are available? What are the technical feasibilities? 
What are the costs and what are the risks of the different 
approaches to avoiding catastrophic change?
    That's where this hearing comes in. What are the 
hypothetical alternatives and how do we best go about 
determining their feasibility, costs, and impacts?
    I will be dropping a bill next week, which members of the 
panel have already seen, and I need guidance from experts on 
what changes to the proposed legislation is needed.
    Thank you, I yield back.
    Chairman Biggs. Thank you.
    I now recognize the Chairman of the entire Committee, 
Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman, and I also thank 
Congressman Weber for letting give my opening statement before 
him. I have a markup that began in the Judiciary Committee that 
unfortunately I've got to attend but I hope to be back shortly.
    Mr. Chairman, first I want to thank the Chairman of the 
Environment Subcommittee, you, for having this hearing, and 
also Representative Weber of Texas, the Chairman of the Energy 
Subcommittee, for your interest in this subject. I also want to 
thank the gentleman from California, Mr. McNerney, for his 
persistent interest in this subject. Every time I've seen him 
on the House Floor for the last couple of months, he's wanted 
to have this hearing, so we appreciate his interest as well.
    Mr. Chairman, geoengineering's potential is worth 
exploring. Generally, we know that the technologies associated 
with geoengineering could have positive effects on the Earth's 
atmosphere. These innovations could help reduce global 
temperatures or pull excess greenhouse gases out of the 
atmosphere.
    For instance, one of the most intriguing ideas in this 
field is solar radiation management. This concept involves 
finding innovative strategies to reduce the amount of sunlight 
that reaches and warms the earth. Today, one of our witnesses 
will expand on this idea with a concept that brightens clouds 
and reflects sunlight, which is measured in albedo. While this 
technology is interesting, we have a lot to learn.
    Some have questioned the unintended consequences of 
geoengineering. One concern is that brightening clouds could 
alter rain patterns, making it rain more in some places or less 
in others. Such technologies could drastically reduce global 
temperatures in the future by spraying aerosols into the 
atmosphere to reflect sunlight. While we are not sure this is 
plausible, some scientists believe it could achieve substantial 
environmental benefits at a cheaper cost than regulations.
    Regardless of these claims, we still do not know enough 
about this subject to thoroughly understand the pros and cons 
of these types of technologies.
    As the climate continues to change, geoengineering could 
become a tool to curb resulting impacts. Instead of forcing 
unworkable and costly government mandates on the American 
people, we should look to technology and innovation to lead the 
way to address climate change.
    Geoengineering should be considered when discussing 
technological advances to protect the environment, and 
geoengineering should not be ignored before we have an 
opportunity to discover its potential. This hearing will help 
Congress do just that.
    Mr. Chairman, I thank our witnesses today for testifying on 
the current state of geoengineering research and for their 
recommendations about how to advance practicable efforts in 
this area, and I'll yield back.
    [The prepared statement of Chairman Smith follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Biggs. Thank you, Mr. Chairman.
    I now recognize the Chairman of the Energy Subcommittee, 
Mr. Weber, for an opening statement.
    Mr. Weber. Thank you, Mr. Chairman. Let me add my welcome 
to today's joint Environment and Energy Subcommittee.
    Good morning and welcome to today's Joint Environment and 
Energy Subcommittee hearing. Today, we are going to hear from a 
panel of experts on the status of America's research in 
geoengineering, a field truly in the scientific unknown. 
Hearings like today's help remind us of the Science Committee's 
core focus: the basic research that provides the foundation for 
technology breakthroughs.
    Within the DOE lab system, Pacific Northwest National Lab 
is leading the effort to protect--to explore the potential 
impact of geoengineering technology. PNNL hosts geoengineering 
researchers who hope to open the dialog on this groundbreaking 
technology--Jerry, you'll be glad to hear--and consider what 
methods could have the most positive impact on the climate. 
Some proposed ideas at PNNL include placement of mirrors in 
space, injection of naturally occurring substances into the 
atmosphere to mimic a volcanic eruption, or brightening the 
clouds overhead. All of these methods could have a cooling 
effect on our lower atmosphere.
    It's amazing to think that molten lava from volcanic 
eruptions can actually produce compounds that cool the air. 
Brightening clouds is equally interesting, but only early-stage 
evaluation has occurred on the practicality of this approach. 
As we will hear from one of our witnesses, we have already seen 
ship tracks that create this brightening effect, where the 
sunlight is reflected back into the atmosphere. By injecting 
aerosols composed of seawater particles into low ocean clouds, 
researchers could shrink the size of water droplets and in turn 
brighten those clouds.
    PNNL's Climate and Earth Systems Science researchers and 
partnerships have to rely on computer models to understand the 
potential impact of these very basic geoengineering methods, 
but as we've heard before in this Committee, models are only as 
good as the data they use.
    I believe that we should consider funding appropriately 
scaled field-testing to improve the accuracy of geoengineering 
models. Through the National Labs, the United States already 
partners with researchers from Canada, China, Denmark, Germany, 
Japan, and Norway. These scientists used the output from 12 
climate models in the Geoengineering Model Intercomparison 
Project, which seek to understand the possible climate effects 
of geoengineering.
    Geoengineering has the potential to provide us with a whole 
new understanding and approach to atmospheric research. If we 
put aside the debates about climate change, we can support 
innovations in science that can create a better prospect for 
future generations.
    The Federal Government should prioritize this kind of basic 
research so we can not only understand the science of 
geoengineering, but hopefully partner with the private sector 
to develop technology to mitigate changes in climate. When the 
government supports basic research, everyone has the 
opportunity to access the fundamental knowledge that can lead 
to the development of future technologies.
    The future's bright for geoengineering, and I want to thank 
our panel of witnesses for testifying today. I look forward to 
a productive discussion about the innovation, research and 
technology of this emerging field of science.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Weber follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
    Chairman Biggs. Thank you, Mr. Weber.
    I now recognize the Ranking Member of the Energy 
Subcommittee, Mr. Veasey, for an opening statement.
    Mr. Veasey. Thank you, Mr. Chairman, and we have an 
excellent panel of witnesses today and I'm really looking 
forward to hearing their insights, and thank you very much for 
being here.
    Despite the numerous claims, geoengineering is not the 
answer to 150 years of polluting our planet at an unsustainable 
rate, and in order to slow the impact of climate change and 
eventually reverse its effects, we have to get out priorities 
straight, and mitigation and adaptation must be part of the top 
priorities. We must face the global challenge of climate 
change, and solving this challenge requires every nation to 
find effective solutions to reduce our emissions and set us on 
a far more sustainable path.
    The scientific community has made clear that climate change 
will continue to be an issue for the rest of this century and 
beyond. The long-term nature of this challenge is the reason we 
need to investigate every possible solution in addition to 
implementing mitigation and adaptation strategies.
    Geoengineering, in particular, is in its very early stages 
and more research is required to expand our understanding of 
its risks and potential benefits. During our discussion today, 
I hope the witnesses can provide us with their recommendations 
on what types of research the Federal Government should invest 
in for the benefit of all Americans. These recommendations will 
help shape our national investments in climate modeling, Earth 
systems research, laboratory experiments, and potential small-
scale field tests in the coming decades.
    On that note, I would like to stress to my colleagues the 
importance of supporting the full spectrum of research at the 
Department of Energy. In particular, activities within the 
Office of Science's Biological and Environmental Research 
program are crucial to expanding our knowledge of Earth systems 
and climate modeling. Funding this important research can have 
numerous benefits, including advancing the field we are 
discussing today.
    It is unfortunate that the Trump Administration's budget 
proposal included a 43 percent cut to BER with major cuts and 
outright eliminations of key activities within the Earth and 
Environmental Systems subprogram. These cuts would hurt the 
emerging field of geoengineering, but more importantly, they 
would cripple our ability to understand the range of factors 
driving global temperatures upward. If you are a climate 
skeptic, then you must support more research to expand our 
collective understanding. If you cannot support that, then you 
are choosing to ignore the facts. Frankly, we have no time to 
ignore the mounting scientific evidence as it relates to 
climate change. We need productive dialogue if we want to 
better understand this challenge and embrace the necessary 
solutions.
    In addition to supporting the key research activities that 
underpin geoengineering, there may also be additional federal 
investments that Congress should consider in order to have an 
impact in the near future. Carbon dioxide removal strategies 
are a generally less-risky form of climate intervention that 
may prove useful in our efforts to fight the impacts of climate 
change. These strategies come in the form of bioenergy with 
carbon capture and sequestration, direct air capture 
technologies, enhanced geological weathering, and land use 
management, just to name a few.
    The National Academies examined carbon dioxide removal in 
2015 and concluded that this area is ripe for further federal 
research investments. For this reason, I included this critical 
research in a draft bill that I will be introducing in the 
coming weeks: the Fossil Energy Research and Development Act. 
In addition to authorizing key R&D activities for carbon 
capture, utilization, and sequestration activities, the bill 
would also instruct DOE to create a research program on carbon 
dioxide removal. I hope that my of my colleagues on both sides 
of the aisle will join me as a cosponsor of this legislation. 
The bill would push the DOE to prioritize the important work of 
environmental mitigation within the Office of Fossil Energy. 
The public health and economic benefits are considerably 
numerous. I hope this bill can be a bipartisan path forward to 
an area of research at DOE that needs it.
    I look forward to working with my colleagues on these 
issues, and thank you, Mr. Chairman. I yield back the balance 
of my time.
    [The prepared statement of Mr. Veasey follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Biggs. Thank you, Mr. Veasey.
    Let me introduce our witnesses. Our first witness today is 
Dr. Phil Rasch, Chief Scientist for Climate Science and 
Laboratory Fellow at Pacific Northwest National Laboratory. 
Previously, Dr. Rasch served as a Chair of the International 
Global Atmospheric Chemistry program and was named a Fellow of 
the American Association for the Advancement of Science. He 
received a bachelor's degree in atmospheric science and 
chemistry from the University of Washington and a master's of 
science in meteorology from Florida State University, and he 
completed his Ph.D. at the National Center for Atmospheric 
Research in Boulder, Colorado.
    Our second witness is Dr. Joseph Majkut, Director of 
Climate Policy at Niskanen Center. Previously, Dr. Majkut 
worked as a Congressional Science Fellow under the American 
Association for the Advancement of Science and the American 
Geoscience Institute. Dr. Majkut received degrees from 
Princeton University, the Delft University of Technology, and 
Harvey Mudd College.
    Our next witness is Dr. Douglas MacMartin, Senior Research 
Associate at Cornell University. Previously, Dr. MacMartin led 
the Active Control and Flow Control Research programs at the 
United Technologies Research Center. He received his bachelor's 
degree from the University of Toronto and his Ph.D. in 
aeronautics and astronautics from MIT.
    And our last today is Ms. Kelly Wanser, Principal Director 
at Marine Cloud Brightening Project, Joint Institute for the 
Study of the Atmosphere and Ocean at the University of 
Washington. Ms. Wanser is a Member of the National Academies of 
Sciences. She received her bachelor's degree from Boston 
College and her master's degree from the University of Oxford.
    I now recognize Dr. Rasch for five minutes to present----
    Dr. Rasch. Are we ready?
    Chairman Biggs. We're going to keep discussing her for a 
few minutes. No, I think we're now ready to recognize Dr. Rasch 
for five minutes to present his testimony. Thank you, Dr. 
Rasch.

                  TESTIMONY OF DR. PHIL RASCH,

              CHIEF SCIENTIST FOR CLIMATE SCIENCE,

                       LABORATORY FELLOW,

             PACIFIC NORTHWEST NATIONAL LABORATORY

    Dr. Rasch. Thank you. Chairmen Biggs and Weber and Smith, 
Members Bonamici and Veasey and Subcommittee Members, thanks 
for the opportunity to be here.
    I testified before this Committee in 2010 on 
geoengineering. I'm the Chief Scientist for Climate Science at 
Pacific Northwest National Labs, where I lead programs studying 
Earth's atmosphere and environmental change. I've also been 
involved in geoengineering research. I've authored about 20 
papers on geoengineering, supported mainly by philanthropic 
foundations and the NSF in my previous job. I was also a member 
of the committee that wrote the National Research Council 
report on geoengineering, and a lead author on relevant 
chapters from the Intergovernmental Panel on Climate Change 
report as well.
    Americans have become increasingly aware of changes in our 
environment ranging from dramatic decreases in sea ice in the 
arctic to increases in summertime heat waves, droughts, floods, 
fires, and damage from hurricane and other extreme weather 
events including increasing ocean acidity that damages 
fisheries.
    Evidence in the National Climate Assessment and elsewhere 
indicates that the changes are connected to increases in carbon 
dioxide so a prudent step to reducing impacts is to stop 
increasing carbon dioxide as quickly as possible.
    Two engineering methods attempt to address some of these 
threats through two very different strategies. I'm not an 
expert in the carbon dioxide removal strategy you heard about 
earlier so I won't discuss it further, and I'll sometimes talk 
about solar radiation management as sunlight reflect methods, a 
term I prefer.
    Sunlight reflection methods try to reflect some of the 
sun's energy back to space, cooling the planet. Two strategies 
have received the most attention so I'll focus on those. One 
method is called marine cloud brightening. You'll all have felt 
the surface temperature go down when a cloud passes overhead on 
a hot summer day by reflecting sunlight back to space. This is 
how clouds cool the planet. We know clouds can be further 
brightened. One dramatic example occurs when ocean freighters 
add particles below clouds to change them and form bright ship 
tracks. Marine cloud brightening attempts to mimic that kind of 
cooling by introducing sea salt particles below clouds. 
Stratospheric aerosol geoengineering tries to mimic the cooling 
effects of large volcanic eruptions by placing extra particles 
in the upper atmosphere.
    Let me just cover a bit of what we know and don't know and 
then make some recommendations for progress. There's a lot more 
detail in my written testimony. We know it's still early days 
for SRM research but there are hints it could help address 
climate change by offsetting, delaying or slowing warming. 
Hints are, that help counter other changes as well. We think 
SRM could buy time for other measures to be put in place. Even 
if it works, though, we know it won't be a magic bullet. It 
won't compensate for all problems, and it may have side 
effects. Stratospheric aerosol geoengineering and marine cloud 
brightening have some common features but they're different 
with different risks and impacts to the planet.
    If we used geoengineering, it would need to be adjusted to 
balance the excess carbon in the atmosphere, and we think it 
would be very risky to balance a lot of carbon dioxide.
    We don't yet know whether geoengineering should be a part 
of the strategies addressing climate change. It'll take at 
least a decade to sort out the benefits, risks, and tradeoffs 
associated with these different technologies.
    So what should we do? I think it's time for a coherent and 
goal-oriented geoengineering research program that complements 
ongoing research in Earth systems science but focuses on a 
defined set of objectives targeting better understanding of the 
effectiveness and potential risks associated with specific 
geoengineering techniques. That program should include 
modeling, lab studies, small-scale field studies, and 
technology development in addition to addressing societal needs 
for transparency in governance.
    Small-scale field studies are needed. These studies should 
be far too small to affect climate but they'll help us 
understand the processes important to the SRM strategies, and 
also help answer crucial questions for climate science. I 
discuss one example in my written testimony. I believe it's 
urgent to have a review on governance strategy for this program 
to help with public understanding and engagement and to improve 
safety.
    Thanks, and I'm happy to take questions.
    [The prepared statement of Dr. Rasch follows:]
    
    
    
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    Chairman Biggs. Thank you, Dr. Rasch.
    Now I'll recognize Dr. Majkut for five minutes to present 
his testimony.

                TESTIMONY OF DR. JOSEPH MAJKUT,

                  DIRECTOR OF CLIMATE POLICY,

                        NISKANEN CENTER

    Dr. Majkut. Thank you, Chairmen Biggs and Weber, and 
Ranking Member Bonamici, and Members of the Committee. I'm 
grateful for the invitation to join you today.
    My name is Joseph Majkut, and I'm the Director of Climate 
Policy at the Niskanen Center here in Washington, D.C., where 
my work focuses on research in climate energy issues, and my 
personal area of expertise is climate science.
    There is no practical scientific doubt that human activity 
is contributing to climate change nor that continuing emissions 
will lead to more warming. There is, however, a great deal of 
uncertainty about the extent of future warming and its 
environmental and economic consequences. Given that 
uncertainty, we should think about this as a risk management 
problem. There may be no perfect solution but in general we 
should seek ways to reduce greenhouse gas emissions, minimize 
societal vulnerability, and otherwise limit the potential costs 
of a warming planet.
    Geoengineering may be one such tool to address those 
potential costs. Further research judiciously done will help us 
answer that question. With that in mind, I would like to 
emphasize three points from my written testimony.
    The first is that there is a great deal of uncertainty 
about whether or not geoengineering would work in practice. By 
changing the reflectivity of the high atmosphere or brightening 
clouds, we might be able to offset some degree of global 
warming quickly and reduce its attendant effects but the risk 
of unintended consequences might be large.
    We do know that once we start cooling the planet by 
artificial means, stopping will be followed by rapid warming as 
long as CO<INF>2</INF> levels remain high. We also know that a 
geoengineered world could not simultaneously hold temperatures, 
rainfall and weather patterns static, meaning that there will 
be tradeoffs should engineering ever be used to partially or 
completely offset global warming.
    The second is the developing a better scientific 
understanding of those potential tradeoffs justifies ongoing 
and future research. Whether or not each of us is concerned 
about the risks of climate change or repulsed by the very idea 
of geoengineering, changes to the Earth's climate will 
inevitably force future generations to confront such choices. 
This research will be affordable and need not supplant other 
efforts to understand the nature of climate change. Such 
research will occur in supercomputing facilities, at the lab 
bench, and also in small-scale field experiments.
    I'll add that I hope it will also be approached via the 
social sciences as judgments of whether geoengineering is good 
or practical are not consigned to questions of chemistry or 
physics. Both the 2015 report from the National Research 
Council and the most recent update of the U.S. Global Change 
Research Program's strategic plan highlight the importance of 
this research and complementary observational and theoretical 
work in climate science, especially since other countries or 
private actors might start intervention experiments of their 
own.
    Lastly, Congress should consider what regulatory governing 
structure will maximize innovation and scientific progress 
while protecting the public and environment from ill-informed 
experiments or premature deployment of these technologies. 
Under the 1971 Weather Modification Act, experiments intent on 
altering the weather or planetary albedo are already regulated, 
and those regulations currently require that researchers report 
their activities to NOAA before and after working in the field.
    For today, that is enough. No one to our knowledge is set 
on large experiments in the near future. However, regulatory 
governance should grow as experiments grow larger, and it is 
not clear at present how such regulations might look.
    Our research at the Niskanen Center indicates that small-
scale experiments should be subject to little more than 
reporting requirements and existing environmental protections 
because their climatological effect will be vanishingly small. 
However, Congress may want to consider if intermediate scale 
experiments should be subject to prior approval of an agency, 
and if large-scale experiments subject to the express 
permission of Congress itself. How we define small, medium and 
large is a question that will require further thought and 
should involve the input of the scientific community and civil 
society. A well-defined and stable regulatory structure will 
publicly clarify research progress and intent, and that intent 
should be to clarify the questions of how geoengineering might 
work and what the costs and benefits of doing it may be. That 
information could be used by future policymakers to avert 
trillions of dollars in losses.
    If the worst-case scenarios of global warming come to pass, 
these technologies could be used to help people, savings lives 
and economies from the most severe effects of climate change. 
Even if emissions reductions happen quickly, future generations 
may still find limited geoengineering of use. Managing the 
risks of climate change is not easy but it will be an ever-
present task in the 21st century and beyond. Research into 
these technologies is an important part of that task as are 
adapting to warming and reducing emissions. A sturdy whip and a 
well-plotted course are no substitute for a close watch on the 
waters ahead nor lifeboats if we need them.
    Thank you for the opportunity to speak to you, and I look 
forward to your questions.
    [The prepared statement of Dr. Majkut follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Chairman Biggs. Thank you, Dr. Majkut, and I apologize for 
mispronouncing your name earlier. I apologize.
    I now recognize Dr. MacMartin for five minutes to present 
his testimony.

              TESTIMONY OF DR. DOUGLAS MACMARTIN,

                   SENIOR RESEARCH ASSOCIATE,

                       CORNELL UNIVERSITY

    Dr. MacMartin. Thank you. So I want to start by thanking 
the Committee Members for the opportunity to testify today. So 
I'm Douglas MacMartin at Cornell University with a background 
in both engineering and climate science, and I've been working 
on geoengineering for about the last ten years, and I think one 
of the striking things about this panel is actually how broad 
our agreement is likely to be on almost all of the issues.
    So the reason we're all here of course is that as was 
reaffirmed last week by the U.S. National Climate Assessment, 
we know that the Earth's climate is changing as a direct result 
of human emissions of greenhouse gases, and we know that the 
United States is already experiencing some impacts as a result. 
While these impacts may be manageable today, they will continue 
to grow so long as we continue to emit greenhouse gases, and so 
the less we emit, the lower the risk, and nothing we say here 
today about geoengineering changes the fact that we must reduce 
our greenhouse gas emissions and that this effort remains the 
most important component of a strategy to respond to climate 
change.
    That said, geoengineering approaches could become a 
valuable additional component of an integrated strategy to 
manage climate impacts. So carbon dioxide removal can 
effectively produce negative emissions, but we need research 
there on scalability, costs, and local impacts, and I'll focus 
primarily on the sunlight reflection, or solar geoengineering 
side, so ideas like adding aerosols to the stratosphere or 
making marine boundary layer clouds more reflective, and I'd 
say from the limited modeling research that we've done to date, 
it's plausible that a limited amount of solar geoengineering, 
used in addition to cutting emissions could reduce some of the 
impacts of climate change but there's still considerable 
uncertainty into the side effects and risks, and that will 
require focused, goal-oriented research. That could take 
decades, at least a decade, maybe more, which is why it's 
important to start it soon.
    So it's important to stress at the outset that solar 
geoengineering cannot be a substitute for cutting emissions for 
several reasons. This conclusion has been reached by every 
assessment of this technology including by the National 
Academies in 2015, so first it does not compensate all of the 
impacts of climate change so ocean acidification would continue 
unchecked.
    Second, if we keep adding greenhouse gases to the 
atmosphere, we'd have to continually increase the amount of 
geoengineering we were doing, so keep adding more and more 
aerosols to the stratosphere every year just to keep 
temperatures in balance, and that would lead to increased side 
effects and risks.
    And third, because of the long lifetime of carbon dioxide 
in the atmosphere, if we relied only on solar geoengineering, 
that would lead to a practically indefinite commitment to 
future generations to either continue deploying it or accept 
the consequences of high CO<INF>2</INF>.
    However, as long as it's considered as a supplement to 
cutting emissions, then it might reduce some climate damages 
and so it would be valuable to conduct the needed research. A 
coherent prioritized research effort needs to be driven by the 
end goal of supporting informed decisions regarding these 
approaches, and research would need to be integrated into the 
overall U.S. climate science research effort and should include 
explicit attention to research governance.
    The next step is probably to clearly articulate research 
needs and how to address them. This might benefit, for example, 
from an expert body like the National Academies. For 
stratospheric aerosol injection, we know that it works at least 
for a degree or two of cooling. It works in the sense of 
cooling the planet simply by analogy with what happens after 
large volcanic eruptions, and the observations made after 
eruptions have helped calibrate our climate models. Near-term 
research here is likely to continue to be primarily model-
based, and once we better understand the uncertainties we need 
to address, it's likely we would need some outdoor experiments 
to resolve key uncertainties, but I should emphasize that these 
would always be at a very small scale. Marine cloud brightening 
would also benefit from small-scale, controlled experiments, 
which would also help inform critical uncertainties in climate 
change science. All of this research will build on continued 
investments in climate modeling, in high-performance computing, 
and in our ability to collect observations about the Earth 
system.
    So in summary, I and I think many of my colleagues in the 
research community believe that even with our best efforts at 
mitigation, the risks of future climate change are sufficiently 
concerning that we may need to consider all of the options at 
our disposal. I conclude that it's essential to conduct 
focused, goal-oriented research to support informed decisions 
but reiterate that this needs to be in addition to the work of 
reducing our emissions of greenhouse gases and not a 
substitute.
    Thank you, and I look forward to all of your questions.
    [The prepared statement of Dr. MacMartin follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Biggs. Thank you, Doctor.
    I now recognize Ms. Wanser for five minutes for her 
testimony.

                 TESTIMONY OF MS. KELLY WANSER,

                      PRINCIPAL DIRECTOR,

               MARINE CLOUD BRIGHTENING PROJECT,

                 JOINT INSTITUTE FOR THE STUDY

                  OF THE ATMOSPHERE AND OCEAN,

                    UNIVERSITY OF WASHINGTON

    Ms. Wanser. Thank you. I should have some slides.
    Thank you, Members of the Committee. It's an honor to be 
here, and I commend you for taking up this challenging topic. 
My name is Kelly Wanser. I spent 20 years as an executive and 
entrepreneur in the technology industry focused on 
understanding and securing large, complex systems. Ten years 
ago, I became interested in how we might apply technology to 
risks in the Earth system and helped form a collaboration that 
became the marine cloud brightening project. I'm now its 
Program Director. Prior to that, I served as an advisor to the 
laser inertial fusion energy program at Lawrence Livermore 
National Laboratory and as senior advisor to ocean conservancy, 
looking at ocean climate risk.
    I'm here today because increased heat in the atmosphere 
poses risks to our way of life and critical parts of nature we 
rely on. We may require options for directly reducing heat in 
the Earth system. There is a need and an opportunity for 
innovation, and there are important steps we can take in 
developing a research program.
    Small particles--aerosols--and the way they interact with 
clouds to reflect sunlight are one of the primary ways that 
nature keeps our planet cool. The most promising approaches to 
rapidly reducing heat in the climate involve adding particles 
to the atmosphere to slightly increase this reflective effect.
    One approach to reducing heat, marine cloud brightening--
next slide--would use sea-salt mist sprayed from ships to 
brighten clouds over the ocean. Next slide.
    [Slide]
    Applied to a fraction of all marine clouds, it might offset 
2 degrees of warming globally, and the way the particles 
brighten clouds and cool the system is a gap in our ability to 
forecast weather and climate, and in this way research in 
marine cloud brightening may be of strategic importance to 
emergency preparedness, national defense, and many industries.
    Today, we lack technical capabilities and scientific 
knowledge for marine cloud brightening or any proposed approach 
to rapidly reducing heat in the Earth system. Next slide.
    [Slide]
    Delivering aerosols with the right properties at sufficient 
scale is a hard engineering problem and takes time. Next slide.
    [Slide]
    Once we have technology, next steps are to build a system 
to enable small-scale field experiments to determine whether 
these ideas are feasible and basic processes to input to 
models. There is a well-defined research plan that starts with 
land-based testing, moves to single ship studies, and finally 
to misting one region of clouds to determine brightening 
effects. This research plan will take years.
    Satellite--next slide.
    [Slide]
    Satellite, aerial and surface observations are critical and 
we will want to support our current infrastructure as well as 
leverage disruptive new technologies and remote sensing from 
innovative companies like Saildrone, Spire Aerospace, and 
others. The work will also require significant advances in 
modeling and data analysis and increased computing capacities 
to support assessment and prediction of effects. It will take a 
decade of core technology development and basic science to 
determine if any options are feasible and another decade to 
scale capabilities for readiness. Work must commence soon to 
produce knowledge and options within a time frame relevant to 
climate risks. With changes occurring around the world, it is 
likely and may be inevitable that others will develop 
capabilities. With a potential to produce geographically 
variable climate outcomes, the United States has a security 
interest in understanding and controlling them.
    Taken alone, capabilities for reducing heat in the 
atmosphere are not a solution. They should ultimately be 
considered as part of a portfolio within a management framework 
that includes emissions reduction, greenhouse gas removal, land 
and ocean management, industrial practices, economic 
incentives, and adaptation. Given the magnitude and urgency of 
the problem and our current lack of knowledge and capabilities, 
defining a research agenda and developing funding pathways for 
research may be critical. A National Academies study to help 
define a research agenda and establish a governance framework 
for research activities may be a valuable initial step. Next 
slide.
    [Slide]
    This type of work is not unprecedented. In 1934, the U.S. 
government undertook the largest effort to address an 
environment problem in our Nation's history: planting 220 
million trees through the center of the Midwest to address the 
great storm of the Dust Bowl. Now may be the time to research 
the possibility of shelter belts in the sky.
    [The prepared statement of Ms. Wanser follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
   
    Chairman Biggs. Thank you. I think each of the witnesses 
for your very interesting testimony. I recognize myself now for 
five minutes for questions.
    Dr. Rasch, I understand that most of the federal research 
on the topic of geoengineering has been conducted at our 
federal labs. Can you elaborate on how much funding is 
currently slated for this type of research?
    Dr. Rasch. To my knowledge, the current funding is 
restricted essentially to a few university professors through 
the National Science Foundation. The rest of it is being 
occasionally supported from various agencies to stay engaged in 
activities like the research reports which you've heard about 
but most of the other work that's being done is being done 
through supportive philanthropic organizations or for free on 
weekends and evenings by scientists who are interested in these 
things. It probably is bounded by less than a million dollars a 
year. It could be a few hundred thousand dollars a year of 
supported research directly for geoengineering. That's to my 
knowledge. I don't really know.
    Chairman Biggs. Any other panelists want to weigh in on 
that question? Dr. MacMartin?
    Dr. MacMartin. The National Center for Atmospheric Research 
has been providing computer time, which is supported by the 
NSF, but that's basically--Phil's answer is correct.
    Chairman Biggs. And so I would guess that--and I don't want 
to presume anything but it sounds like you would agree that the 
topic has not been adequately pursued in the recent phase?
    Dr. Rasch. Right. My reaction is that it's very easy to 
identify the fact that a very small amount of effort has been 
put into this area and that progress could be made much more 
rapidly with a relatively small amount of funding.
    Chairman Biggs. It leads me to ask why has geoengineering 
not received the same kind of funding as maybe some other types 
of research over the last 8 to ten years. Dr. Rasch?
    Dr. Rasch. Well, I think there's a recognition by all that 
it's quite a controversial subject of real concern to citizens 
of the United States and to other scientists as well, and there 
is some reluctance to take the first step is my sense. That's 
my best answer.
    Chairman Biggs. Dr. Majkut, or actually anyone on the 
panel, outside of the Federal Government, is--and you mentioned 
some of the philanthropic supporters of geoengineering 
research. What's the postsecondary education or university 
level of research in this area? Ms. Wanser?
    Ms. Wanser. So the overall philanthropic funding in this 
area is, I would characterize it as maybe in the range of $1 to 
$2 million a year, mostly allocated towards one program, the 
stratospheric aerosol program at Harvard. For the most part my 
experience in the philanthropic community is that this subject 
matter is not yet acceptable for funding, so traditional 
sources of environmental and climate research funding in the 
philanthropic community are not yet funding in this area.
    Chairman Biggs. And Dr. Majkut, how about universities?
    Dr. Majkut. Well, we know there's a few research programs 
around the country, Harvard University, Washington, other 
individual scholars. Whether or not this particular item falls 
under a research priority for a particular university I don't 
think is a question that's easy for me to answer. There are 
individual academics who put their energy into it, as Phil 
says, but it's not a very large field as you go to these 
scientific meetings where geoengineering is discussed. You see 
that there's a relatively small number of people working on 
these issues.
    Chairman Biggs. Are other countries working on 
geoengineering research, Dr. MacMartin?
    Dr. MacMartin. So I think the largest program in the world 
is probably the one at Beijing Normal University in China but 
that's relatively new and unclear exactly where they're going 
with that, but in Europe there's some small efforts as well but 
not substantially larger than what's in the United States.
    Chairman Biggs. So thinking of it in terms of global 
competition, it doesn't sound like we're falling behind global 
competitors, it's just that we're not advancing as rapidly as 
perhaps many or some would like. Is that fair to say?
    Dr. MacMartin. Not yet but that may change depending on 
China's future----
    Chairman Biggs. Dr. Rasch?
    Dr. Rasch. It was just--I might beg to differ a little bit 
with Dr. MacMartin that my sense is that over the last five 
years or so, a variety of European countries have identified 
explicitly some funding for geoengineering research that 
amounts to a few million dollars a year perhaps for--at that 
level, which is substantially larger than the amounts that I 
could identify in the United States.
    Chairman Biggs. Well, again, thank all of you for being 
here, and my time is expired, and I recognize the Ranking 
Member of the Environment Subcommittee, Ms. Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Just to follow up on the Chairman's questions about work 
being done internationally, were any of you at the conference 
in Berlin? Yes? So in terms--I know the Chairman mentioned 
global competition but we also need to I think have a 
conversation with the concerns, and Dr. Rasch, you recognize, 
as our constituents do, there's some controversy and we need 
some ethical discussions and boundaries, and Dr. Majkut, you 
mentioned that there's a statute in the United States that 
research needs to be reported and there needs to be some 
framework. So how much work is being done internationally on 
collaborating on some of these questions of what are the 
frameworks and what are the ethical considerations and how much 
is regulated in terms of--climate doesn't know political 
boundaries so, you know, somebody in the United States has to 
comply with this law but what about internationally? Who's 
leading that discussion?
    Dr. Majkut. So there are several newer organizations that 
are looking at the international aspects of this research and 
also, you know, geoengineering more broadly as something that 
might be used to prevent climate risk not represented here 
today. I think those discussions are beginning to occur but 
it's--you know, they're consigned to issues that are related to 
but not just scientific, right, so the moral and ethical 
frameworks in which we look at these questions. Those 
conversations are beginning. It's still early stage.
    Ms. Bonamici. And how does the United States compare with 
other--you mentioned China, Russia, other countries that are 
maybe working on this in terms of having some sort of 
regulatory framework or guidance and ethical considerations.
    Dr. Majkut. I couldn't say about the foreign countries, 
sorry, but the United States, I think, you know, as I 
testified, has a framework in place for any research that's 
going to take place in the next few years, and because of the 
strength of our scientific community and the National Academy 
of Sciences, I expect that we will remain at the front of 
figuring how we can go about this research judiciously.
    Ms. Bonamici. And Dr. MacMartin, we've heard today a few 
times that geoengineering is not going to be the magic bullet 
or a fix, it's not a substitute for mitigation and adaptation, 
and you said that geoengineering could be part of the strategy. 
So could you please talk about the range of activities that 
would be included in mitigation and adaptation, and what 
mitigation work is still required to prevent the most 
catastrophic consequences of climate change and what role might 
geoengineering play in that in terms of priorities?
    Dr. MacMartin. So I think it is clearly that we eventually 
have to get to zero emissions or net zero emissions of carbon 
dioxide principally. Basically when we hit zero is when we stop 
making the problem worse, and the question really is how fast 
that happens because we can't do that overnight. That would 
have serious economic consequences if we tried to do that 
instantly. And so the question in some sense is, how do you 
balance the needs of our--how do you balance the needs of our 
grandchildren to have a safe environment and to have a decent 
economy. So the best efforts at mitigation are still probably 
going to result in some serious climate damage. You can imagine 
using carbon dioxide removal in the long term to pull the 
CO<INF>2</INF> levels back down and in the interim potentially 
thinking of solar geoengineering as a way to keep the 
temperatures from getting too bad so that you don't do things 
like lose parts of Antarctic ice sheets while you're waiting 
for the CO<INF>2</INF> removal to bring us back down.
    Ms. Bonamici. Does anybody else want to add to that, the 
question of--we know there's a lot of interest in exploring 
geoengineering but what are the mitigation and adaptation 
activities that perhaps need to have priority?
    Dr. Majkut. Well, we know that, or our sense is that 
mitigation and adaptation are both beneficial today. The 
question of geoengineering is if it will be beneficial in the 
future. They're very different by nature. Reducing emissions 
permanently reduces the net impact of humans on the climate. 
Potentially introducing these technologies at some later date 
will do that temporarily but their nature is very different.
    Ms. Bonamici. Dr. Rasch?
    Dr. Rasch. If I can follow up, it's just to affirm what 
Doug MacMartin said, which is essentially I think many of us 
view the sunlight reflection methods as being an interim 
solution which allows--provides some breathing space while the 
mitigation and adaptation measures take place, and I think we 
all believe that they should occur as rapidly as possible. Lots 
of us are hoping that the carbon dioxide removal methodologies 
will be economically viable and provide a mechanism for drawing 
some of the CO<INF>2</INF> out of the atmosphere, so that's a 
very important strategy to consider.
    Ms. Bonamici. Thank you. My time is expired. Thank you, Mr. 
Chairman.
    Chairman Biggs. Thank you.
    The Chair recognizes Mr. Weber, the Chairman of the Energy 
Subcommittee, from Texas.
    Mr. Weber. Thank you, Mr. Chairman. I appreciate it.
    Dr. Rasch, in your testimony you said you'd been kind of 
looking at this field for about ten years and you published 20 
papers, or maybe it was in your comments before your testimony 
as I read through it, and you also cited another gentleman that 
had published 42 papers, and what was his name?
    Dr. Rasch. Ben Kravitz----
    Mr. Weber. Okay, and----
    Dr. Rasch. --another colleague here at PNNL working with 
me.
    Mr. Weber. And how long has he been in the field?
    Dr. Rasch. Probably ten years as well. He started as a 
Ph.D. student working for a very eminent professor who chose to 
support him to work in this area based on his work on volcanic 
eruptions because this is a related--the impacts of volcanoes 
are related to the ones we're exploring today.
    Mr. Weber. Right. So the theory and concept of 
geoengineering is not new in the scientific community. Would 
you say it's just kind of taken off in the last 10 years?
    Dr. Rasch. Well, it's interesting. You can go back to the 
1960s and find conversations that have been occurring about 
geoengineering. It certainly started to receive a huge amount 
of attention following a paper that was published by a Nobel 
Prize-winning chemistry named Paul Crutzen in 2006, so it's 
about ten years old. In fact, that scientist and that paper was 
what brought me into the field and it might have been some of 
the other people on this committee.
    Mr. Weber. And is Paul Crutzen--what country is he from?
    Dr. Rasch. He has spent the last 30 years or so in Germany. 
He did have a position at my former institute, the National 
Center for Atmospheric Research, in Colorado, and he's 
originally from Holland.
    Mr. Weber. Okay, not that you know much about him.
    Dr. Rasch. I didn't quite know how to answer that.
    Mr. Weber. Well, we only have five minutes so--so he 
published the paper, and you got interested. Is he still active 
in this field?
    Dr. Rasch. He is engaging. He's in his late 80s and ill so 
he's not as heavily involved but he does actually endorse the 
importance of doing research in this area to this day.
    Mr. Weber. Okay. So as we've heard today, research has been 
moving kind of slowly, and of course, you just described the 
last ten years, I guess. So how do you get that idea out there 
to make more people interested in it? In your opinion, what 
steps could be taken to increase the participation of 
researchers while encouraging experiments in geoengineering? 
What needs to be done?
    Dr. Rasch. Well, I'm a strong advocate for this coherent 
research program that involves a set of five elements, which 
I've listed in my written testimony.
    Mr. Weber. Okay.
    Dr. Rasch. And which I'd be happy to discuss.
    Mr. Weber. Okay. So much of what we know today is based on 
computer climate modeling. So how would small-scale field 
experiments improve those models, and can you describe a small-
scale experiment?
    Dr. Rasch. Sure. You saw some examples of some of the 
elements of a small-scale experiment on the slides Ms. Wanser 
showed, and----
    Mr. Weber. Did you all collaborate on those?
    Dr. Rasch. We have been working together.
    Mr. Weber. Good.
    Dr. Rasch. I'm part of that marine cloud brightening team 
that's located at the University of Washington, where I also 
have an appointment.
    So it would involve seeing whether we could--let's talk 
about marine cloud brightening for a moment. It would--that one 
we know it is possible to make clouds more reflective but it 
only happens in certain circumstances, and we're very--it's 
very difficult to be precise about the circumstances that it 
can occur in. So what we would like to be able to do--first 
off, there are many variables that take place which could help 
to explain that. The weather situations and clouds could be 
part of it. We see these clouds form in the wake of freighters 
which have different technologies on board. They use different 
kinds of fuel. They use different emission----
    Mr. Weber. That's kind of fascinating because those 
emissions that come from those freighters is producing a heat 
content, perhaps carrying CO<INF>2</INF> obviously with it, and 
so you're saying that in and of itself produces droplets that 
intermingle with the clouds?
    Dr. Rasch. It's actually the particles that come out. If 
the emission controls on those ships were perfect, then they 
probably wouldn't be producing these ship tracks. What happen 
is that every cloud drop wants to form on a particle, all cloud 
drops in the atmosphere, and these ships release some 
particles, and when they do, those particles act to allow more 
clouds--more drops to form in certain clouds.
    Mr. Weber. So you can duplicate that process?
    Dr. Rasch. That's part of it, so what we would like to see 
is if we can do it in precisely the circumstances because I was 
saying, as ships--one ship is different from another, and it's 
very difficult to be precise about exactly what the conditions 
were that allows the brightening to occur, and we would like to 
be more precise about those things?
    Mr. Weber. Okay. My time is expired, Mr. Chairman. Thank 
you.
    Chairman Biggs. Thank you.
    The Chair recognizes the Ranking Member on the Energy 
Subcommittee, Mr. Veasey from Texas.
    Mr. Veasey. Thank you, Mr. Chairman.
    In addition--and this is for all the witnesses to answer. 
In addition to the solar radiation management, one alternative 
climate intervention strategy that the National Academies 
examined recently is carbon dioxide removal. What is the 
potential of carbon dioxide removal to play a significant role 
in our efforts to mitigate the effects of climate change?
    Dr. MacMartin. So there's a number of ideas that have been 
suggested including bioenergy with carbon capture and 
sequestration, so basically you grow crops, you burn them in a 
power plant, you suck the CO<INF>2</INF> out of the flue gas 
and store it underground, and the problem with ideas like that 
is that the scale that you need to do them on to make a dent in 
climate change is something of order the scale that we're 
currently emitting CO<INF>2</INF> at, which as a species is 
about 40 gigatons per year, and so unless you're talking about 
pulling, you know, 5, 10, 15, 20 gigatons per year out of the 
atmosphere, it's a pretty small dent. And the problem basically 
is that things like the bioenergy with carbon capture and 
storage would compete with land use that we use for food crops, 
and then there's another set of ideas to directly capture it 
from the atmosphere, directly capture CO<INF>2</INF> from the 
atmosphere. That is almost certain to be technically feasible 
but right now probably too expensive, and it's almost certain 
to be cheaper to not put it in the first place than to take it 
out after you've put it in. And then there's a variety of other 
ideas that are probably less well understood. So the bottom 
line is, all of the things need either--we need something that 
is scalable, cost-effective, and does not have substantial 
local impacts, and right now we don't have any ideas that 
satisfy all three of those, which is why we would need more 
research in that, and if we don't start now, it's not going to 
happen.
    Ms. Wanser. I would add to that list genetically engineered 
organisms and plants that might more efficiently capture carbon 
in the way that nature does but in an accelerated fashion. Some 
of the new capabilities with genetic modification, the CRISPR 
technologies, may be relevant for investment in this area.
    I would also say that carbon removal capabilities at scale, 
many of them carry serious ecological consequences that also 
need to be evaluated as we look at them.
    Mr. Veasey. Another controversial area in the Congress, the 
GMOs.
    Some of the riskier strategies for carbon dioxide removal 
include ocean iron fertilization and the large-scale enhanced 
weathering. What are the drawbacks to these strategies in an 
environmental and public-health context?
    Dr. Majkut. Well, those technologies, you know, could 
prospectively capture quite a bit of carbon dioxide from the 
atmosphere and retain it in places where it would be durable 
either the sea or in rocks. The issue, as Doug says, is to do 
this in a way that's going to significantly affect how much 
excess CO<INF>2</INF> is in the atmosphere. It's going to take 
a lot of land or a lot of ocean, and the ecological effects of 
either of those things is not quite known.
    Mr. Veasey. Also, I wanted to talk with you briefly about 
funding levels. You know, I'm very concerned, as a lot of 
people are, about federal R&D programs under this 
Administration. We saw in the budget proposal earlier this 
year, the Trump Administration supports very large cuts to 
research agencies. For example, the proposal included major 
cuts to climate modeling and Earth systems sciences at the DOE. 
Will these funding cuts hurt or help us better understand the 
field of geoengineering?
    Ms. Wanser. So I think it's important to acknowledge that 
if we're interested in engineering the climate system that our 
capabilities or observing, analyzing and interpreting the 
information about the climate system are essential. So all of 
the platforms and capabilities and talent that we have are not 
only areas that we want to preserve but if we're interested in 
active intervention in the Earth system, we would want to 
advance and enhance those capabilities.
    Dr. MacMartin. I would just second that. We need the same 
climate models. We need a lot of the same observational 
capacity, and we use the exact same high-performance computing.
    Mr. Veasey. Thank you very much, Mr. Chairman. I yield back 
my time.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman. Thank you for calling 
this very interesting hearing, and thank the witnesses for 
their informative testimony.
    Do you believe--this is for anyone on the panel, for all on 
the panel--there's a risk that in starting to build 
geoengineering capabilities, we could lose control of them, and 
how do you think it would compare to the risk of bioengineering 
and nanotechnologies?
    Dr. Rasch. I'm willing to take a stab at it. I think 
scientists are all concerned about the possibility of this--us 
losing control of it and adopting it but I personally feel that 
it works better to operate from a position of knowledge about 
it rather than the absence of that knowledge, and I think the 
cat's kind of out of the bag at this point in the game that the 
technology is possible. So I would prefer to be spun up on what 
it's----
    Mr. Posey. Okay. Ms. Wanser, you had your hand up next.
    Ms. Wanser. Well, solar climate engineering technologies 
actually have a high barrier to entry, so they're relatively 
expensive to engineer and relatively expensive to measure, and 
they scale linearly, so you evolve solar climate engineering 
technologies with a number of disbursals you have. They're very 
easy to see and detect. Whereas nanotechnology and 
bioengineering techniques have very low barriers to entry. They 
now--you can now buy a kit to engineer organisms with CRISPR 
for less than $200, and you could release them into the wild. 
So the challenge with things like bio engineering is that they 
are low barriers to entry and self-replicating. So in some 
senses, solar climate engineering actually is less challenging 
from a governance perspective provided we have a framework in 
place.
    I disagree a little bit with Dr. Majkut that we already 
have one. I think it's part of what we would want to define in 
conjunction with the research program. But I think some of the 
challenges here are a bit more straightforward than they are in 
some of these other fields.
    Mr. Posey. Anyone else care to comment?
    Dr. MacMartin. Yeah, I just wanted to add, if we did put 
aerosols into the stratosphere at any point, the lifetime in 
the stratosphere is about a year or two, and so whatever we put 
up there is just going to come back down. That also means that 
if you want to maintain it, you have to constantly be putting 
more in. So there's less risk of it running away when you're 
actually deploying it than there would be for, say, a 
biotechnology-type intervention.
    Mr. Posey. Any hard evidence on the effect that subsurface 
activity has on the atmosphere? I mean, we know what ended the 
last Ice Age. It was an asteroid strike which basically created 
the Gulf of Mexico and darkened out the Earth for many, many 
years and allowed it to freeze over. There are some conditions 
that exist here now that have the potential to recreate that 
catastrophe. Some of the research I've seen at Yellowstone, the 
big volcano in the Azores that they say will cause 100-foot-
high tsunami, you know, but your thoughts on how that may 
affect us?
    Dr. Majkut. Well, relevant to these questions, there's a 
volcano, Mount Agung, which is on currently a level 3 eruption 
watch, so we may have a natural experiment coming up should it 
erupt and inject sulfates into the atmosphere. Then we would 
see a repeat of what previous volcanoes have done and probably 
some cooling influence, and thankfully the scientific community 
I believe is ready and standing by to observe that and 
understand the processes as best they can. That's certainly 
true.
    Dr. Rasch. If I might follow up----
    Mr. Posey. Dr. Rasch?
    Dr. Rasch. --it's to say just that the scientific community 
is very interested in a rapid response team for watching over 
these volcanic eruptions but they are sort of assembling it as 
we speak, and it's not maybe quite as far along, as Joe 
mentioned.
    Mr. Posey. One last question. What have other countries 
done so far in this realm?
    Dr. Rasch. The rapid response team is part--is an 
international effort. There's certainly a very large and 
interested part of American U.S. scientists participating but 
that is an international activity.
    Mr. Posey. Okay. Thank you, Mr. Chairman. My time's 
expired.
    Chairman Biggs. Thank you.
    I recognize the gentleman from California, Mr. McNerney.
    Mr. McNerney. I thank the Chairman and I thank the 
witnesses.
    You have seen the legislation I am about to introduce. Do 
any of you have comments about that legislation, whether you 
think it's useful or should be improved or anything like that? 
Anyone care to answer that question?
    Dr. Rasch. I've had only a chance to look at it very 
briefly and would be delighted to provide some more comments 
offline.
    Mr. McNerney. Thank you.
    Dr. Majkut. I have the same idea.
    Mr. McNerney. Thank you.
    Dr. MacMartin. So I haven't read through it in complete 
detail but I think in general I'm very supportive of having the 
National Academies involved in trying to understand exactly--
basically lay out the roadmap for research in this area as well 
as looking at the governance side of things.
    Mr. McNerney. Thank you.
    Ms. Wanser. As I mentioned in my remarks, I'm very 
supportive of the notion of a National Academies study process 
to help define a research agenda. The community to date in 
geoengineering has been very small and centered in modelers 
with some physicists and some ethicists and policy researchers. 
So I believe that that process could help expand the array of 
disciplines that we need to look at this area and also help to 
build consensus about what a research program should look like.
    Mr. McNerney. Well, following up with that on a governance 
framework, what sort of scope of organizations and individuals 
should be involved in the development of a governance 
framework?
    Dr. Majkut. I think we should be looking at sort of all the 
concerned parties, right? So the scientific community plays a 
vital role. I think civil society should play some role as 
well, and I think Congress should take into consideration the 
idea that you might want to have a say in how these things get 
governed, and then going forward, we can also look at managing 
these types of things with international partners as well.
    Mr. McNerney. Ms. Wanser, you mentioned that it would take 
about 20 years for the technology to be deployable. Would 
having a research governance mechanism speed up that timeline 
in your opinion?
    Ms. Wanser. At the moment, one of the barriers to 
technology development and field research is the lack of either 
a government framework or social license for the work. So I 
think it would reduce risk for people who would fund the 
research and people who would enter the field to have an 
appropriate governance framework to allow it to proceed. So 
yes.
    Mr. McNerney. Very good.
    Do any of you know if there have been field tests on 
geoengineering that have been carried out by other countries?
    Dr. Rasch. I'm not aware of any.
    Dr. MacMartin. There's been--there was a brief attempt in 
the U.K. to do an experiment that was just on a tethered hose 
so it was just developing hardware that didn't actually take 
place, and there was an attempt in Russia a number of years ago 
to try to do something that was a bit of a stunt but it wasn't 
really scientifically accurate.
    Mr. McNerney. Do Russia and China have limitations on what 
their scientists are able to do in terms of geoengineering?
    Dr. MacMartin. So the program in China right now is purely 
based on climate modeling and much more focused on what the 
impacts of deploying solar geoengineering would be. I do know 
from conversations with them that they're asking questions 
about whether their next phase of their research should involve 
some experimental work but they have not yet made any decisions 
about that.
    Mr. McNerney. So we don't need to be worried about them 
doing large-scale deployments?
    Dr. MacMartin. I don't think we need to be worried about 
anybody doing large-scale deployments because if you want to do 
scientific research, the research questions are all about 
process uncertainties, you know, trying to understand chemical 
reaction rates in the stratosphere and things like that, and 
they don't require large tests to do those things.
    Mr. McNerney. So then what are some of the key ethical 
questions that we should be considering in moving forward with 
this field of work?
    Dr. MacMartin. I think my personal answer to that would 
simply be that a lot of people are very concerned about the 
slippery slope and whether an effort in research is eventually 
going to lead to deployment, and I think a lot of people are 
very concerned about the research effort in geoengineering 
detracting from efforts in mitigation, and so in some sense the 
issues with ethics and governance are primarily wrapped up in 
involving the public participation and where we want to be 
going as a society in the future.
    Mr. McNerney. Mr. Chairman, I want another five minutes. I 
yield back.
    Chairman Biggs. Thank you, and the Chair recognizes the 
gentleman from Texas, Mr. Babin.
    Mr. Babin. Thank you, Mr. Chairman. Extremely interesting 
topics, and I appreciate you convening this hearing and your 
witnesses being here.
    You've already alluded to it a little bit about the safety 
and environmental risks of this research being proposed, and we 
just talked about Russia and some of the other countries and 
maybe deploying fully things of this nature, and you mentioned 
a slippery slope, Dr. MacMartin, and what do you mean exactly 
by slippery slope? Is this something that you mess around with 
Mother Nature and it may turn into something that's even worse 
than you're trying to fix?
    Dr. MacMartin. I was actually referring to the societal 
process, the concern that if we start doing research, that 
eventually that's going to lead to deployment, and people might 
think wait, wait, we haven't actually decided on deployment 
yet.
    Mr. Babin. Right.
    Dr. MacMartin. So that's a concern that people have 
expressed.
    Mr. Babin. Okay. But is that a concern with any of you 
folks that are involved in this, that we could unleash 
something irreversible if you continue to do this cloud 
brightening or the stratospheric procedure? Is that a 
possibility?
    Dr. Rasch. I think at the level that we're talking about 
doing things right now, as I think Joe mentioned, the changes 
to the planet are vanishingly small. It would be hard for you 
to notice, to even detect it if you didn't know it was 
happening. So it's really tiny compared to, for example, the 
impact that flying an aircraft from Washington, D.C., to 
Seattle would have on the planet. So they're small today. If 
one wants to get to the point of considering having a climate-
altering effect, then the impacts get much more important to 
worry about, and we have to be more careful when things get 
ramped up to that time.
    Mr. Babin. Right.
    Dr. Rasch. As Kelly mentioned, I think it would take 20 
years to decide on whether we have a good enough understanding 
to decide that it might be useful to do this or not, if we're 
going all out on it.
    Mr. Babin. All right. Thank you.
    Anybody else want to add to that?
    Dr. Majkut. Yeah, I think I would just reiterate that a lot 
of the sort of smaller-scale field experiments that scientists 
are presently proposing to do are going to be unnoticeable to 
the untrained eye. You need a really fancy experimental setup 
and cool instruments to even detect that it's going on, right? 
Questions of, you know, does this research affect sort of other 
societal questions about how we address climate change are real 
but I think it's--you know, it's a bit of speculation to say 
whether that'll cut one way or another. We should go about this 
judiciously and carefully and slowly and with an open and 
transparent process. I think that's probably the best approach.
    Dr. MacMartin. I agree.
    Mr. Babin. Okay. Yes, ma'am?
    Ms. Wanser. I think one of the things that may be helpful 
from a governance process or an oversight process is a 
definition of what we mean by research-scale or small-scale 
experiments and then lots of transparency with regard to that 
so that where it's not easy for people to understand what the 
limits of these things are. We have some very bright, shiny 
lines between what we do for research and the kinds of things 
that would have greater impacts.
    Mr. Babin. Okay. And while you're at the mic, you discussed 
the need for research framework earlier in this field, and 
could you explain what your whole-systems approach to 
geoengineering research would be?
    Ms. Wanser. Well, probably not terribly briefly, but I 
think there's--it's what sometimes referred to as a 
transdisciplinary field, so we think about certainly the 
climate research part of it. We have a technology innovation 
component. We need to think how systems would interact together 
and how different actions taken on the Earth system would 
interact like policies that we make that change the forcings in 
the climate too. So part of a research program is to bring 
people who are not currently present into the discussion 
starting with aerosol engineers and other types of engineers 
who would be needed to think about how these things would 
actually work, looking at the innovations in observations 
measurement and computing. So today the experiment that I 
showed you about marine cloud brightening, they do observations 
like that now of pollutants, and when they go out and take 
those measurements, they bring them back. They take months to 
analyze the data. If we're acting on the Earth system actively, 
we're going to want information much faster and we're going to 
need to improve our systems to do that.
    So when we think about the whole system, we have to think 
forward a little bit about what we'd be looking at in terms of 
the feedback to the perturbations that we make and how we need 
to understand them. Does that help?
    Mr. Babin. Yes. Yes, it does. Thank you very much, and my 
time is expired, Mr. Chairman. Thank you.
    Chairman Biggs. Thank you. The Chair recognizes the 
gentleman from New York, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
impressive panel of witnesses for joining us today.
    As the only New Yorker on the Committee, I would like to 
take a moment to give special thanks to Dr. Douglas MacMartin 
from Cornell University. We thank you for your time and your 
expertise, and we thank Cornell for the contributions it makes.
    The recently released 4th National Climate Assessment 
Climate Science Special Report represents the scientific 
collaboration of some 13 United States federal agencies with 
sign-off from the White House. That report found with high 
confidence a likely human contribution of well over 90 percent 
of the observed change between 1951 and 2010 in the global 
climate. Furthermore, the report found with very high 
confidence that the magnitude of climate change beyond the next 
few decades will depend primarily on the amount of greenhouse 
gases emitted globally and on the remaining uncertainty in the 
sensitivity of Earth's climate to those emissions.
    We know the harms caused by climate change are grave and 
that they are growing. They have already done harm to human 
health, to water quality and availability, sea-level rise, and 
they have worsened natural disasters. For this and countless 
other reasons, failure to address climate change will result in 
significant economic harm to our country and her people.
    Given the conclusions of these impartial scientists and the 
widely accepted consensus that climate change is real and 
primarily driven by human activity, I urge all members of this 
Committee to move forward with this White House-approved 
consensus in mind.
    Geoengineering absolutely should be a part of the 
discussion of solutions, but with that said, we can't lose 
sight of the fact that significant reductions in GHG emissions 
are indeed necessary.
    So for all of our witnesses, you have emphasized that 
numerous gaps remain in the scientific understanding of 
geoengineering technologies. Can each of you just briefly 
describe these gaps in the scientific understanding of 
geoengineering strategies?
    Dr. Rasch. Yeah, I'll mention one or two because I could go 
on for the whole five minutes. So----
    Mr. Tonko. One or two will do.
    Dr. Rasch. Okay. So we at the moment don't--the situation 
of using geoengineering differs from either the marine cloud 
brightening or volcanoes because we would intend to put 
particles into the atmosphere continuously rather than they 
would just occur episodically, and we don't know how the 
existing particles will respond to the--to putting in these 
kind of particles for long periods of time. Models tell us that 
it will be different from the way it would work for a volcano, 
let's say, so that would be one example of something which we 
don't know but we need more information.
    Mr. Tonko. Okay. Thank you.
    Doctor?
    Dr. Majkut. One particular aspect of this that really 
fascinates me is questions of when you have these sort of 
compensating mechanisms of warming at the surface and cooling 
in other parts--either concentrated parts of the atmosphere or 
high up in the atmosphere, what are going to be the effects on 
other conditions that we care about, not just temperature, 
right? So biology, the oceans. I think a lot of these 
downstream issues need to be investigated much further.
    Mr. Tonko. Thank you.
    And Dr. MacMartin?
    Dr. MacMartin. So I would second both of those and just 
reiterate that we know a fair amount of stratospheric aerosols 
just from observing volcanic eruptions, but it is different 
from a large volcanic eruption. We don't actually have any 
observations of geoengineering obviously and so we sort of have 
to figure out as we go how do we go collect that knowledge 
about what the processes in the stratosphere are going to be.
    Mr. Tonko. Okay. Thank you.
    Ms. Wanser. Well, we don't yet have any technology for 
producing aerosols of the type and at the scale that we're 
talking about for this, and until we know what the limits of 
those technologies are, what we're inputting to our models is 
very much guesswork, and we also don't know how to measure and 
detect in real time.
    Mr. Tonko. So then what would the next steps be to address 
these gaps? Any recommendations to the Committee?
    Dr. MacMartin. So I think one step is clearly to actually 
just start by saying if we want to support informed decisions 
in 10, 15, 20 years to be very careful that writing down what 
all the uncertainties are and propagating those through the 
climate models, so if there's something uncertain about 
stratospheric aerosol microphysics or chemistry, how important 
is that in terms of influencing our decisions and therefore 
what experiments would we need to do to help resolve those 
uncertainties. That's the type of research that I think we need 
to be focused on.
    Mr. Tonko. Anyone else?
    Dr. Rasch. Yeah. I mean, I will just say that there are--I 
think one of the things that is missing so far is that the 
research that's been done today is primarily curiosity driven 
and people have picked at various elements of the 
geoengineering unknowns, but I think we need to do it in a much 
more systematic way to try and move pretty quickly towards 
getting an idea about what are the tradeoffs involved in this 
work.
    Mr. Tonko. Okay. With that, I yield back, Mr. Chair.
    Chairman Biggs. Thank you.
    The Chair recognizes the gentleman from Illinois, Mr. 
Foster.
    Mr. Foster. Thank you, Mr. Chair, and thank you for holding 
this hearing. It really shows a level of engagement on this 
issue that I think is overdue and very welcome.
    Are there any sort of zero-order either cost estimates or 
estimates for the amount of aerosols that you'd need, for 
example, to reverse a 2-degree warming or a calculation of, you 
know, if you have a gigaton of coal, how many gigatons or tons 
of aerosols you have to put into the atmosphere? Are there any 
rough estimates based on volcanoes and similar that people have 
done?
    Dr. MacMartin. So I'll give you a rough estimate that 1 
degree of--1 degree Celsius of cooling, so 1.8 Fahrenheit is, 
say, 10 megatons of sulfur dioxide into the upper atmosphere, 
and in terms of cost, there's estimates of costs that are in 
the billions of dollars, but quite frankly, I don't think that 
the direct economic costs of bringing material to the 
stratosphere, those probably are not the reasons why we would--
how we would evaluate this. It's far more a question of what 
the risks and the side effects are.
    Mr. Foster. Right. Okay. So it wouldn't be the direct costs 
of actually even carrying this out. They all would be dwarfed 
by, you know, the trillion-dollar scale effects of, you know--
--
    Dr. MacMartin. Yeah, and the direct costs of doing it is 
probably more observational capacity of satellites and things 
to monitor things.
    Mr. Foster. Which brings me to the issue of international 
governance because, you know, Congress can pass all the laws we 
want and if, you know, China decides that it wants to preserve 
its islands it just built in the South China Sea or, you know, 
Bangladesh or Micronesia decides that they're going to be 
underwater in short order, you know, their interests are not 
necessarily aligned with ours, or if you do this and you see 
it's going to redistribute rainfall globally, you know, or 
reverse the Gulf stream or stop the Gulf stream. You know, 
there are worries like that that are out there. And so it seems 
like you need an international mechanism for someone who will 
say no, you cannot do that. And you know, we're in a tough 
situation right now because we have an Administration that's 
done things like reject the Paris agreement. And so I was 
wondering if there are serious, maybe outside this country, 
serious discussions of how we're going to regulate this 
internationally.
    Dr. MacMartin. Discussions are beginning but, you know, as 
we kind of see here today, this is a new topic for 
conversation, particularly for a lot of policymakers. So 
they're sort of at their early stages. I highlight in my 
testimony some ideas. I'd be happy to follow up with you about 
them in more detail about how we can accomplish some of these 
questions here and sort of build a national governance model 
that could influence how things work internationally. I think 
that would be a good thing to talk about. But yeah, we're still 
at very early stages in terms of international issues.
    Mr. Foster. It also seems to me that the level of 
controversy having to do with CO<INF>2</INF> removal strategies 
is much lower than albedo modification, particularly 
atmospheric. Is that a fair reading of sort of your--the 
attitudes you see toward this, that the objections of CO<INF>2</INF> 
removal are simply going to cost a lot more than averting the 
emissions in the first place.
    Dr. MacMartin. So in terms of direct climate impacts, then 
there's basically no climate impacts from pulling CO<INF>2</INF> 
out. It just--that solves the root of the problem. But I think 
one of the reasons there hasn't been any pushback is perhaps 
people don't quite get what the local impacts might be. So if 
you need to displace land area the size of India for food crops 
for bioenergy, I think that would actually have some serious 
consequences. So I think yes, people are less concerned about 
CDR but maybe they should be a little bit more concerned than 
they are.
    Mr. Foster. That would be a very technology-specific thing.
    Dr. MacMartin. Very, very specific to the technology.
    Mr. Foster. And so now, when you got these sort of natural 
experiments from volcanoes going off, how frequent are 
volcanoes that actually provide you relevant data and get 
enough aerosols up in the stratosphere that you actually get a 
useful volcano? Do they happen once a decade, once a century, 
or once every few years?
    Dr. Rasch. Probably less frequently than once a decade and 
more frequently than once a century they come alive.
    Mr. Foster. All right.
    Dr. Rasch. They do have smaller-scale volcanoes. One went 
off in Iceland a few years ago that was useful for 
understanding some aspects of, for example, the way clouds 
could be brightened by addition of extra particles in the 
atmosphere. But the really big eruptions like Pinatubo or 
Agung, those are----
    Mr. Foster. Those are rare. I remember after that volcano 
happened, I called up Nathan Myhrvold, who you're probably well 
aware is one of the, you know, people of means interested in 
paying for this, and he indicated that it simply didn't put 
enough into the high stratosphere to be useful.
    Dr. Rasch. For the stratospheric aerosol analog.
    Mr. Foster. Right. But now, if you look at the historic 
record of----
    Chairman Biggs. The gentleman's time is expired.
    Mr. Foster. Excuse me. I yield back.
    Chairman Biggs. Thank you, Mr. Foster. I appreciate that.
    The Chair recognizes the gentleman from Indiana, Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. It's a very interesting 
discussion today. Thank you for being here.
    I believe like probably most of my colleagues do that it's 
imperative that we deal with the reality of a $20 trillion 
national debt. Even though that debt is driven by mandatory 
spending programs, our constituents at home expect us to find 
savings wherever possible. We've seen in my home State of 
Indiana the innovative utilization of public-private 
partnerships to overcome this dilemma. One example I'd like to 
point to is the Indiana Biosciences Research Institute. The 
Institute is a public-private partnership between universities 
and research institutions, industry and the State of Indiana. 
The Institute fosters collaboration between these entities in 
life sciences research and support the commercialization of 
their research. One big advantage, in my view, of an 
arrangement like this is that the participation of industry 
ensures that research will be directed toward endeavors that 
are commercially viable and produce a positive return on 
investment.
    So with that, I'd like to hear the panel's perspective on 
the potential for public-private partnerships to advance 
research in this area. Dr. Rasch, if you could respond to that 
first, we'd appreciate it.
    Dr. Rasch. Well, I know that my laboratory is quite 
interested in these public-private partnerships. I have to 
admit I'm not an expert in the area and can't tell you about 
the potential for this particular application.
    Mr. Banks. Okay. And next to you?
    Dr. Majkut. I would also have to demur. I think public-
private partnerships are useful in many contexts but it's hard 
for me to state strongly one way or another on this issue.
    Mr. Banks. Ms. Wanser, I see you raising your hand.
    Ms. Wanser. So I see tremendous opportunity for public-
private partnerships and the disruptive innovation that's 
happening in remote sensing and in computing. So for the types 
of capabilities that we need to monitor and interpret what we 
would do in geoengineering, there are particular opportunities 
to work with those companies to do things in a way that's 
potentially an order or two orders of magnitude less expensive 
than we do it now in satellite observations, in ocean 
observations, the opportunity to have much more comprehensive 
Earth coverage and a much more granular level, and at the same 
time I think that are big opportunities for partnerships in the 
computing space for the adoption of cloud computing for some of 
the workloads that we do in this area that could be done on the 
public cloud in a cheaper and more agile way and opportunities 
to explore exoscale computing for the kinds of things we 
haven't solved yet in terms of understanding the Earth system 
more rapidly.
    Mr. Banks. So you agree that public-private partnerships 
are fruitful, but do you believe that the environment exists to 
further public-private partnerships as it stands today?
    Ms. Wanser. My experience leads me to believe--to be 
hopeful, yes.
    Mr. Banks. Thank you. I yield back.
    Chairman Biggs. Thank you. I thank each of the witnesses 
for being here today and a very interesting Committee hearing, 
and appreciate the members and their questions.
    The record will remain open for two weeks for additional 
written comments and written questions from members.
    And this hearing is adjourned.
    [Whereupon, at 11:44 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
